ESL Rewards Visa Signature® Credit Card Information
(09/18)

Interest Rates and Interest Charges
Annual Percentage
Rate (APR) for
Purchases

0.00% Introductory APR for 12 billing cycles following the

APR for
Balance Transfers

0.00% Introductory APR for 12 billing cycles following the
account open date.

account open date.

13.25% - 17.99%

After that, between
based on
your creditworthiness. This APR will vary with the market
based on the Prime Rate 1.

After that, between 13.25% - 17.99% based on your
creditworthiness. This APR will vary with the market based
on the Prime Rate 1.
APR for
Cash Advances

17.90%

Penalty APR and
When it Applies

18.0%
This APR may be applied to your account if:
1. Your minimum monthly payment is not made for two
consecutive billing cycles.
How long will the Penalty APR Apply?
If your APRs are increased for the reason above, the Penalty
APR will be applied until the billing cycle after your past due
status is corrected.

Paying Interest

Your due date is at least 25 days after the close of each
billing cycle. We will not charge you interest on purchases
and balance transfers if you pay your entire balance by the
due date each month.
We will begin charging interest on cash advances on the
transaction date.

Minimum Interest
Charge

If you are charged interest, the charge will be no less than
$.50.

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer
Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

See reverse side for additional information.

Fees
Annual Fee

None

Transaction Fees

1% of transaction amount
• International
Service Assessment

Penalty Fees
• Late Payment
• Returned Payment

Up to $25.00
Up to $25.00

Other Fees

None

1: We add 8.00% - 14.24% to the Prime Rate to determine the Purchase and Balance Transfer
Rates. As of 09/27/18, the Prime Rate was 5.25%. Your APR will not exceed the
maximum allowed by applicable law, which is currently 18.00%.

How we will calculate your balance
We use a method called “average daily balance (including new purchases).” See your
account agreement for more details.
Loss of Introductory APR
We may end your Introductory APR and apply the Penalty APR if your minimum
monthly payment is not made for two consecutive billing cycles.
Billing Rights
Information on your rights to dispute transactions and how to exercise those rights is
provided in your account agreement.

